      Department of Homeland Security




    Adequacy of USSS’ Internal Investigation of Alleged
            Misconduct in Cartagena, Colombia




OIG-13-24                                      January 2013

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov




                                  January 24, 2013


MEMORANDUM FOR: 	            The Honorable Mark Sullivan
                             Director
                             United States Secret Service



FROM:                        	 harles K. Edwards

                             C
                             Deputy Inspector General

SUBJECT: 	                   Adequacy of USSS’ Internal Investigation of Alleged
                             Misconduct in Cartagena, Colombia

Attached for your action is our final report, Adequacy of USSS’ Internal Investigation of
Alleged Misconduct in Cartagena, Colombia. We incorporated the formal comments from
the United States Secret Service in the final report. The report contains no recommendations.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Please call me with any questions, or your staff may contact Carlton I. Mann, Assistant
Inspector General for Inspections, at (202) 254-4100, or William J. McCarron, Chief
Inspector, at (202) 254-4206.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security

   Table of Contents
   Executive Summary............................................................................................................. 1 


   Background ......................................................................................................................... 2 


   Results of Review ................................................................................................................ 3 


            USSS Management in Cartagena Responded Appropriately to
             Allegations That Employees Solicited Prostitutes .................................................. 4

            USSS Inspection Division Conducted an Administrative Investigation ..................... 6

            USSS Revised Policies and Changed Supervision Staffing on Protective Visits....... 13

   Appendixes
            Appendix A:           Objectives, Scope, and Methodology ............................................. 16 

            Appendix B:           Management Comments to the Draft Report................................. 17 

            Appendix C:           Timeline of Events ........................................................................... 18 

            Appendix D:           Major Contributors to This Report ................................................. 19 

            Appendix E:           Report Distribution .......................................................................... 20 


   Abbreviations
            CNP                    Colombian National Police
            DHS                    Department of Homeland Security
            DOD                    Department of Defense
            FSD                    Forensic Services Division
            GS                     General Schedule
            ISP                    Inspection Division (USSS)
            NCCA                   National Center for Credibility Assessment
            OIG                    Office of Inspector General
            RAIC                   Resident Agent in Charge
            RES                    Office of Professional Responsibility
            SAIC                   Special Agent in Charge
            USSS                   United States Secret Service




www.oig.dhs.gov                                                                                                                  OIG-13-24
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

   Executive Summary
   In April 2012, United States Secret Service (USSS) employees were in Cartagena,
   Colombia, preparing for a Presidential visit to the Summit of the Americas. During these
   preparations, several USSS employees were suspected of soliciting prostitutes. In
   response, USSS took the following steps: (1) managers in Cartagena responded to the
   alleged solicitation; (2) USSS’ internal affairs office investigated the alleged solicitation;
   and (3) USSS revised policies and supervision staffing for protective visits. We assessed
   USSS’ response to the alleged solicitation of prostitutes by its employees.

   We determined that USSS responded expeditiously and thoroughly to the allegations.
   Managers in Cartagena began a management inquiry to determine whether USSS
   employees solicited prostitutes and to ensure that the protective mission was not
   compromised. The USSS Director relieved 11 employees who allegedly solicited
   prostitutes from their protective assignments in Cartagena. USSS replaced 5 of the 11
   employees and reorganized staff to maintain the integrity of the protective mission.

   USSS placed the 11 employees suspected of soliciting prostitutes on administrative
   leave and suspended their security clearances. USSS’ internal affairs organization, the
   Office of Professional Responsibility, Inspection Division, conducted an investigation.
   Investigative activities included interviewing 232 subjects and witnesses, sending four
   inspectors to Colombia, reviewing thousands of email messages, and administering 14
   polygraph examinations.

   On August 29, 2012, USSS issued a report on its investigative activities through
   May 24, 2012. The report presented a thorough account of employee conduct, and
   concluded that Presidential security, sensitive information, and equipment were not
   compromised in Cartagena. On December 27, 2012, the agency issued a second report
   on the results of its interviews and investigative work conducted after May 24, 2012.
   We received the second report while we were preparing our final report, and
   determined that it did not alter our findings or conclusions.

   USSS subsequently established and issued a directive that reiterated agency
   expectations and policies, and introduced additional guidance regarding briefings,
   supervision, and off-duty activities on foreign trips. The USSS Director also created a
   Professional Reinforcement Working Group to assess USSS’ organizational behavior,
   performance, and accountability.

   We make no recommendations in this report.




www.oig.dhs.gov                                  1                                         OIG-13-24
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   Background
   USSS has two primary missions: (1) to safeguard the Nation’s financial infrastructure
   and payment systems and (2) to protect national leaders, visiting heads of state and
   government, designated sites, and high-profile events. USSS employs approximately
   3,200 special agents, 1,300 uniformed officers, and more than 2,000 technical,
   professional, and administrative support personnel.

   In April 2012, USSS staff were preparing for a Presidential visit to Cartagena, Colombia,
   for the Summit of the Americas. The Special Agent in Charge (SAIC) of the Miami Field
   Office is responsible for USSS activities in Colombia. Other managers such as the SAIC of
   the Protective Intelligence Division and the Assistant SAIC of the Presidential Protective
   Division were also present (figure 1). In addition, the Resident Agent in Charge (RAIC) of
   the Bogota, Colombia office was in Cartagena in support of preparations for the
   Presidential visit.

   Figure 1. USSS Chain of Command During the Presidential Visit to Cartagena,
   Colombia, in April 2012




   Source: USSS.

   On April 12, 2012, the Colombian National Police (CNP) received a complaint from a
   prostitute alleging that a patron at the Hotel Caribe, who was a USSS employee, did not
   pay for sexual services she provided. After CNP and USSS personnel were unsuccessful
   at contacting the employee, a discussion concerning payment ensued among CNP
   officers, the prostitute, and USSS personnel outside the room of the alleged solicitor.

www.oig.dhs.gov                                2                                       OIG-13-24
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   The prostitute’s complaint was resolved when two other USSS employees paid the
   complainant. The head of security for Hotel Caribe notified U.S. Embassy personnel
   about the incident. The State Department’s Deputy Regional Security Officer notified
   USSS managers of the incident and that other USSS employees might have solicited
   prostitutes.

   Although prostitution is not specifically addressed in USSS’ standards of conduct, USSS
   officials asserted that solicitation of prostitutes violated standards, which state that
   “employees shall not engage in criminal, infamous, dishonest, immoral or notoriously
   disgraceful conduct or other conduct prejudicial to the [United States] Government.”
   Further, the agency’s standards of conduct state that the absence of a specific,
   published policy covering an act that brings discredit to an employee or USSS does not
   mean the act is condoned, is permissible, or would not call for and result in corrective or
   disciplinary action. USSS employees are expected to adhere to these standards both on
   and off duty.

   In addition, adjudicative guidelines for revoking access to classified information state, in
   part, that sexual behavior is a factor when the behavior may subject the individual to
   coercion, exploitation, or duress, or reflects lack of judgment or discretion. All USSS
   employees must maintain eligibility to access classified information at the Top Secret
   level to remain employed.

   Results of Review
   USSS managers must use their discretion to address employee conduct concerns while
   meeting security needs on protective assignments. Managers in Cartagena responded
   appropriately by notifying headquarters promptly about the incident, gathering facts,
   and taking steps to ensure that the protective mission was not compromised. The USSS
   Director relieved employees who allegedly solicited prostitutes from their protective
   assignments in Cartagena.

   Subsequent to the employees’ removal from the protective assignment in Cartagena,
   USSS’ internal affairs organization, the Office of Professional Responsibility (RES),
   Inspection Division (ISP), investigated the alleged solicitation. The investigation was
   consistent with USSS procedures, was conducted quickly, and provided a credible
   account of employee conduct.

   USSS also established and issued a directive that reiterated agency expectations and
   policies, and introduced additional guidance regarding briefings, supervision, and off-
   duty activities on foreign trips. In addition, the USSS Director created a Professional
   Reinforcement Working Group to assess USSS’ organizational behavior, performance,
   and accountability.

www.oig.dhs.gov                                 3                                         OIG-13-24
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           USSS Management in Cartagena Responded Appropriately to Allegations That
           Employees Solicited Prostitutes

           The allegations that USSS employees in Cartagena, Colombia, solicited
           prostitutes prompted a resource-intensive response in Cartagena and at
           headquarters. The Miami SAIC began a management inquiry to determine
           whether USSS employees solicited prostitutes and to ensure that the protective
           mission was not compromised. We determined that the Miami SAIC’s inquiry
           was thorough, given the impending arrival of the President and the need to
           focus on the protective aspects of the visit.

           USSS Management in Cartagena Performed a Management Inquiry

           After the Department of State’s Deputy Regional Security Officer informed USSS
           management in Cartagena of the alleged misconduct, the Miami SAIC instructed
           managers to notify their respective chains of command in the Office of
           Protective Operations and the Office of Strategic Intelligence and Information.
           The Miami SAIC informed the chain of command in the Office of Investigations of
           the intent to conduct a management inquiry.

           After alerting USSS headquarters, the Miami SAIC began collecting facts
           surrounding the alleged misconduct and identifying individuals who may have
           had prostitutes as guests at the Hotel Caribe. The Miami SAIC did not attempt to
           determine whether USSS employees solicited prostitutes prior to April 11, or at
           other hotels in Cartagena.

           Within an hour of the Miami SAIC learning of the allegations, the Assistant
           Directors of the Office of Investigations and the Office of Protective Operations
           briefed the USSS Director on the incident. The USSS Director contacted the
           Miami SAIC to discuss the incident and potential courses of action.

           The Department of State’s Deputy Regional Security Officer provided USSS
           managers a handwritten note that included names of USSS employees who Hotel
           Caribe personnel believed may have been involved in the alleged solicitation of
           prostitutes. The Miami SAIC instructed USSS logistics officials to verify that the
           names and room numbers matched, and that the individuals were USSS
           employees. However, USSS managers questioned the accuracy of the note
           because one of the individuals listed had been working an all-night shift on
           April 11, and could not have been involved. Hotel Caribe charges registered
           guests a fee for hosting female visitors in their rooms between 11:00 p.m. and
           6:00 a.m. These visitors must register with the front desk and provide
           identification. To determine who might have been involved, the Miami SAIC

www.oig.dhs.gov                                 4                                       OIG-13-24
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           requested a list of all Government employees who checked an overnight guest
           into their rooms on April 11. This list included the names of 12 USSS employees
           for whom the hotel provided overnight guest registration cards.

           Within 11 hours of learning of the incident at the Hotel Caribe, USSS managers
           had interviewed 12 USSS employees whose room numbers were associated with
           having overnight guests. During these interviews, 11 employees admitted to
           hosting female foreign nationals in their rooms, and 1 employee denied the
           allegation. After reviewing the overnight guest registration and observing that
           the room number had been changed by hand, the Miami SAIC determined that
           this employee did not have a female foreign national in his room. After further
           inquiry with Department of Defense (DOD) officials, the Miami SAIC determined
           that a DOD employee hosting a female guest overnight wrote the USSS
           employee’s room number on the card without the USSS employee’s knowledge
           or consent. The USSS employee resumed his duties in support of the Presidential
           visit. On April 13, 2012, the Miami SAIC sent a message to the Assistant
           Directors of the Office of Investigations and RES that summarized the interviews.

           We determined that the Miami SAIC’s inquiry was thorough and timely, given
           the impending arrival of the President and the need to ensure appropriate
           attention to the protective aspects of the visit.

           USSS Management Took Steps To Ensure That the Protective Mission Was Not
           Compromised

           According to USSS policies, misconduct allegations can result in removing
           employees from their protective assignments, putting them on administrative
           leave, and suspending their clearance. While the inquiry in Cartagena was
           ongoing, the USSS Director ordered the removal of the 11 individuals who
           allegedly solicited prostitutes from their protective assignments and their return
           to the United States. They departed Cartagena on the morning of April 13, less
           than 24 hours after the allegations were made. Because preparations for the
           President’s arrival were near completion at the time of the allegations,
           managers’ efforts to remove the implicated employees from Cartagena did not
           affect the execution of the security plan. USSS replaced 5 of the 11 employees
           and reorganized staff to maintain the integrity of the protective mission.

           Based on information obtained during the inquiry, the USSS managers in
           Cartagena concluded that employee interactions with female foreign nationals
           did not compromise the protective mission. During the inquiry, USSS managers
           concluded that employees did not disclose sensitive information. The employees


www.oig.dhs.gov                                 5                                       OIG-13-24
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

           had not received details of the security plan and therefore did not have
           information that could jeopardize the protective mission.

           The Miami SAIC emphasized to staff assisting with the response that the alleged
           misconduct was sensitive and should not be discussed with colleagues.
           Additionally, the Miami SAIC reminded employees supporting the Cartagena
           protective assignment that they were representing the U.S. Government and
           USSS, and must adhere to policies regarding acceptable ethics and conduct.

           USSS Inspection Division Conducted an Administrative Investigation

           On April 13, 2012, ISP initiated an administrative investigation to collect facts
           concerning possible conduct violations by employees in Cartagena and
           determine whether national security or the President’s safety was compromised.
           ISP initiated an administrative investigation since the management inquiry did
           not identify any potential criminal activity. USSS placed the 11 employees
           suspected of soliciting prostitutes on administrative leave and suspended their
           security clearances, which is a standard USSS practice during administrative
           investigations.

           Between April 13 and May 24, 2012, ISP took the following investigative actions:

           •	 Requested a U.S. intelligence agency check for derogatory information on the
              foreign nationals involved in this incident;
           •	 Interviewed 232 subjects and witnesses;
           •	 Sent four inspectors to Colombia;
           •	 Reviewed thousands of email messages; and
           •	 Requested that the Forensic Services Division (FSD) administer 14 polygraph
              examinations.

           On August 29, 2012, USSS issued a report on its investigative activities through
           May 24, 2012. The report presented a thorough account of employee conduct,
           and concluded that Presidential security, sensitive information, and equipment
           were not compromised in Cartagena. On December 27, 2012, the agency issued
           a second report on the results of its interviews and investigative work conducted
           after May 24, 2012. We received the second report while we were preparing our
           final report, and determined that it did not alter our findings or conclusions.




www.oig.dhs.gov                                6	                                     OIG-13-24
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           USSS Initiated Investigative Activities in Accordance With Departmental
           Policies

           USSS initiated investigative activities in accordance with DHS Management
           Directive 0810.1 and an existing memorandum of understanding between USSS
           and the Office of Inspector General (OIG). The memorandum states that RES
           should initiate an investigation upon receipt of an allegation, and notify OIG’s
           Office of Investigations within 5 business days. OIG’s Office of Investigations will
           then notify ISP if it intends to assume control or become involved in the
           investigation, but absent such notification, ISP maintains full responsibility for
           these investigations.

           USSS received the allegations of misconduct on April 12, 2012, and began an
           investigation the following day. The USSS Director informed the Acting Inspector
           General of the allegations by noon on April 13, 2012. On April 17, 2012, 3
           business days after the incident at the Hotel Caribe, USSS notified OIG’s Office of
           Investigations in writing of its intent to conduct an administrative investigation
           of the alleged misconduct in Cartagena. OIG’s Office of Investigations declined
           to assume control of the investigation but asked to be kept informed of its
           outcome.

           ISP’s Investigative Approach Was Consistent With Internal Procedures

           Solicitation of prostitutes in Cartagena is not a violation of Colombian law. RES
           determined that, consistent with provisions in its Internal Operating Procedures
           Guide, an administrative, rather than a criminal, investigation was the appropriate
           course of action. The guide specifies that in an administrative investigation,
           inspectors are not required to advise employees of their rights before an
           interview.

           Scope

           In the interest of conducting a focused, timely investigation, ISP limited its scope
           to the allegations of solicitation of prostitutes in Cartagena. ISP did not attempt
           to determine whether solicitation of prostitutes is widespread within USSS.
           However, a senior RES manager said that USSS addresses all allegations of
           misconduct, citing as an example a concurrent but separate inquiry into alleged
           solicitation of prostitutes by employees in El Salvador. We determined that the
           investigative scope was appropriate, given the allegations of solicitation of
           prostitutes by employees in Cartagena and the need to provide facts to USSS
           management in a timely manner.


www.oig.dhs.gov                                 7                                         OIG-13-24
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           Methodology

           ISP’s strategy was to interview implicated employees to assess the extent and
           nature of the allegations, and determine whether national security or the
           President’s safety were compromised. After ISP managers provided the USSS
           Director with details of the alleged solicitation of prostitution by USSS employees
           in Cartagena, the Director authorized ISP to interview all USSS personnel who
           were in Colombia during the summit.

           To assess whether national security was compromised, USSS asked a U.S.
           intelligence agency to check for derogatory information on the foreign nationals
           involved in this incident. Additionally, USSS asked CNP to conduct a criminal
           records check on the foreign nationals and to check for derogatory information
           on establishments visited by USSS employees. Both the USSS and DHS OIG
           investigative reports concluded that there was no compromise of national
           security. We did not evaluate those efforts.

           To assess ISP’s methodology, we interviewed 3 ISP managers, 17 inspectors, and
           3 support personnel who were involved in the Cartagena investigation. ISP
           employees said that the investigation was consistent with previous internal
           investigations for the following reasons:

           •	 ISP managers provided sufficient guidance;
           •	 The pace of the investigation was fast but did not compromise the quality or
              integrity of ISP’s work;
           •	 Inspectors recused themselves from an interview when their relationship
              with the subject could cause a lack of objectivity; and
           •	 The investigation was fair and impartial.

           ISP’s Investigation Was Expeditious and Thorough

           ISP conducted an expeditious investigation of alleged solicitation of prostitutes
           by its employees in Cartagena. Within 42 days of learning of the alleged
           misconduct, ISP had completed interviews and polygraph examinations,
           reviewed records, and started drafting its initial report of investigation (see
           appendix C). ISP used all of its 24 inspectors, support personnel, and managers.
           ISP canceled a scheduled inspection of the USSS Technical Security Division to
           allocate additional personnel to the Cartagena investigation. Furthermore, ISP
           employees worked extended hours, including weekends, on the investigation.




www.oig.dhs.gov                                 8	                                      OIG-13-24
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

           ISP’s investigation resulted in subject and witness statements, polygraph
           examination reports, email communications, and hotel records that provide a
           credible account of employee conduct. Subjects of the investigation included:

           •	 Eleven employees who the Miami SAIC determined had guests in their rooms
              at the Hotel Caribe;
           •	 One employee who inspectors in Cartagena determined had a guest in his
              room at the Hilton Hotel, Cartagena (hereafter referred to as “Hilton Hotel”);
              and
           •	 One employee who notified his manager after he returned from Cartagena
              that he had received sexual services in exchange for money at a private
              apartment.

           Interviews of USSS Personnel

           Between April 14 and May 24, 2012, ISP inspectors interviewed all USSS
           personnel in Cartagena for the President’s trip. Inspectors documented all
           interviews of USSS personnel and other witnesses through written sworn
           statements by interviewees, memorandums of interview, or both.

           To ensure that interviews of USSS employees addressed relevant concerns, ISP
           designed different interview templates for personnel implicated in the incident
           from those employees not suspected of misconduct. We analyzed interview
           templates and determined that the questions adequately addressed employee
           conduct, as well as Presidential and national security. ISP inspectors asked USSS
           employees whether:

           •	     Any misconduct took place;
           •	     Additional employees solicited prostitutes;
           •	     Employees disclosed sensitive information;
           •	     Agency equipment was compromised; and
           •	     Personnel were familiar with the standards of conduct and procedures for
                  reporting a foreign contact.

           Although ISP managers instructed inspectors to follow the templates during
           interviews, they also expected inspectors to ask additional questions when
           appropriate.

           We reviewed all statements written by subjects and witnesses, as well as ISP
           inspectors’ written accounts of the interviews, to assess whether inspectors
           asked relevant questions and documented interviews consistently. Even though
           some interviewees’ written statements did not address interview questions, the

www.oig.dhs.gov                                  9	                                     OIG-13-24
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           inspectors’ written accounts of interviews typically contained additional
           information or explained why an interviewee was not able to answer all
           questions.

           Investigative Activities in Colombia

           From April 17 through 25, 2012, four inspectors went to Cartagena, Colombia, to
           interview witnesses, assess the establishments where employee misconduct
           originated, and obtain records relevant to the investigation. Inspectors
           interviewed female foreign nationals identified during the management inquiry,
           Hilton Hotel and Hotel Caribe staff, CNP officers, Cartagena law enforcement
           representatives, and U.S. Government employees with potential knowledge of
           the incident. USSS Bogota Resident Office personnel and CNP assisted the ISP
           team.

           One of ISP’s priorities was to interview female foreign nationals involved in the
           incident at the Hotel Caribe. ISP had difficulty locating them and requested
           assistance from CNP officials. Investigators used data from national
           identification cards and health record databases to locate 10 of 12 women
           implicated with USSS employees at the Hotel Caribe. On May 10, 2012, USSS
           located and interviewed another allegedly involved female foreign national in
           Spain. USSS could not locate one female foreign national allegedly involved. ISP
           used information from interviews with the Colombian women to corroborate or
           refute the statements of implicated USSS employees.

           Interviews of Hotel Caribe employees and Colombian police assigned to the
           Hotel Caribe provided useful details about the actions of implicated USSS
           personnel. In addition, interviews with Hilton Hotel staff revealed that another
           USSS employee may have solicited a prostitute.

           Conducting an investigation in a foreign country posed unique challenges. For
           example, interviewing foreign nationals required the use of translators, which,
           according to some inspectors, created communication barriers. Another
           complicating factor was that USSS does not have legal authority to conduct an
           investigation in Colombia. Inspectors relied on CNP officers to coordinate
           investigative activities. Even with their assistance, inspectors depended on
           female foreign nationals’ consent to be interviewed, since prostitution is not
           illegal in Cartagena. In addition, without investigative authority, inspectors were
           unable to obtain records from the Hilton Hotel while in Colombia. However,
           with assistance from the Department of Justice, USSS subsequently obtained
           records of rooms billed to USSS during the summit.


www.oig.dhs.gov                                   10                                     OIG-13-24
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

            Examination of Email Communications

            Between April 13 and May 9, 2012, inspectors reviewed the USSS email accounts
            of subjects and witnesses. Inspectors coordinated with the USSS Office of
            Technical Development and Mission Support to access the email accounts and
            retrieve information relevant to the investigation. ISP conducted targeted
            searches of employee email communications and identified individual email
            messages that provided additional evidence.

            Polygraph Examinations

            ISP asked FSD to administer national security and specific-issue polygraph tests
            to employees implicated in misconduct. Through these tests, ISP planned to
            determine whether USSS employees compromised the President’s security,
            national security, or sensitive information, and whether the employees provided
            truthful statements to inspectors. Between April 17 and 27, 2012, FSD
            administered 14 polygraph examinations to 10 employees, requiring 22 series. 1
            FSD administered polygraph examinations in accordance with USSS and Federal
            guidelines. 2 ISP decided not to pursue polygraph examinations for three
            employees because they were in the process of separating from the agency by
            April 17, 2012.

            We determined that the agency’s use and administration of the polygraph
            examinations were consistent with USSS procedures. Specifically, we evaluated
            their compliance with the following processes:

            •     Initiation of a polygraph examination;
            •     Polygraph equipment and facilities;
            •     Administration of polygraph examinations;
            •     Polygraph program quality control; and
            •     Retention of polygraph examination files.

            USSS polygraph guidelines state that, prior to administering polygraph
            examinations, inspectors should attempt to exhaust all feasible investigative
            leads; have a strong working knowledge of the case details; thoroughly interview
            the subjects; and collect sworn statements, when possible. Although ISP had not
            exhausted all investigative leads when FSD administered the examinations, ISP

   1
     A series is the collection of the required polygraph chart(s) for a particular examination. Multiple series 

   may be required to complete one examination.

   2
     The USSS Polygraph Program Operating Procedures, June 2007, and the National Center for Credibility

   and Assessment Federal Psychophysiological Detection of Deception (Polygraph) Examiner Handbook, 

   December 2011.


www.oig.dhs.gov                                          11                                                OIG-13-24
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

              interviewed subjects and obtained sworn statements prior to examinations in
              accordance with USSS polygraph guidelines. Inspectors provided examiners with
              sworn statements prior to examinations.

              We interviewed 2 USSS Polygraph Program managers and 14 examiners who
              were involved with the polygraph examinations. Seven examiners suggested
              that the timing of the polygraph examinations was unusual because ISP had not
              exhausted all investigative leads at that time, but all examiners asserted that
              polygraph examinations followed standard procedures and were performed with
              integrity and professionalism. USSS officials explained they prioritized polygraph
              examinations to identify potential national security threats.

              We also asked the National Center for Credibility Assessment (NCCA), a DOD
              agency that trains polygraph examiners and provides oversight of Federal
              polygraph programs, to assess USSS’ polygraph examinations. NCCA determined
              that polygraph testing protocols, procedures, and test question construction
              were consistent with Federal polygraph standards.

              NCCA concurred with 19 of the 22 series. However, NCCA could not support
              USSS’ conclusions in three series involving three employees. In each case,
              NCCA’s independent scoring changed a definitive decision by USSS, whether
              truthful or deceptive, to “no opinion.” 3 Table 1 lists the scoring differences
              between USSS and NCCA:

              Table 1. Polygraph Scoring Discrepancies Between USSS and NCCA
                 Examination         Series Type             USSS Decision             NCCA Decision
                 Employee 1        National Security     No Deception Indicated         No Opinion
                 Employee 2        National Security      Deception Indicated           No Opinion
                 Employee 3        National Security     No Deception Indicated         No Opinion
              Source: NCCA.

              For employees 1 and 2, NCCA’s evaluation of examination data resulted in a
              different decision from that of USSS because of differences in scoring
              methodologies and interpretation of data by NCCA subject matter experts.
              Although the USSS scoring methodology differed from that of NCCA, NCCA
              determined that the USSS scoring methodology was consistent with Federal
              polygraph standards. NCCA said that these minor discrepancies are not
              indicative of problems with the examination, but rather differences of opinion
              during the subjective polygraph scoring process. NCCA determined that
              employee 3’s physiology was too poor to assign a score to the data collected

   3
       “No opinion” is the term used when a conclusive decision on physiological data cannot be rendered.

www.oig.dhs.gov                                         12                                             OIG-13-24
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           during the examination, necessitating a “no opinion.”

           USSS Revised Policies and Changed Supervision Staffing on Protective Visits

           On April 27, 2012, in response to alleged misconduct by employees in Cartagena,
           Colombia, the USSS Deputy Director issued a directive reiterating existing
           expectations and policies and introducing additional guidance. The short
           amount of time this guidance has been in effect, and concurrent work by our
           Office of Investigations, limited our ability to fully assess its effectiveness. The
           USSS Director also created a Professionalism Reinforcement Working Group to
           assess USSS’ organizational behavior, performance, and accountability.

           New Directive Further Restricts Off-Duty Activities

           In response to the Cartagena incident, the USSS Deputy Director issued a
           directive addressing personal and professional conduct. This directive amends
           USSS standards of conduct with additional guidance and policies regarding off-
           duty conduct, briefings, and supervision on foreign trips. In addition, the
           directive restates that the absence of a specific, published standard of conduct
           covering an act or behavior does not mean that the act is condoned, is
           permissible, or will not result in corrective or disciplinary action. Prior to
           issuance of the directive, USSS employees were subject to USSS and Department
           of Homeland Security (DHS) conduct standards, as well as Federal guidelines for
           all employees of the executive branch. These policies state that employees shall
           not engage in infamous or disgraceful conduct and have a standard of personal
           behavior that reflects positively upon and will be a credit to both employees and
           the Government.

           While in Cartagena, employees were accused of soliciting prostitutes and having
           them as guests in their hotel rooms, consuming excessive amounts of alcohol,
           and patronizing questionable local establishments while off duty. To address
           this alleged conduct, the directive amended standards of conduct to include the
           following:

           •	 A prohibition on foreign nationals entering employees’ hotel rooms,
              excluding hotel staff and official counterparts;
           •	 A mandate that, on official travel, alcohol may be consumed only in
              moderate amounts while off duty;
           •	 An extension of the period before duty that employees must abstain from
              alcohol from 6 to 10 hours;
           •	 A prohibition on the consumption of alcohol at the protectee hotel once the
              protectee arrives in the country;

www.oig.dhs.gov                                 13	                                      OIG-13-24
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           •	 A prohibition on patronizing nonreputable establishments; and
           •	 An application of the laws of the United States to USSS personnel while
              abroad.

           The directive prohibits access to “nonreputable establishments.” Several
           interviewees expressed concern that the directive does not clearly define what
           constitutes a “nonreputable establishment.”

           USSS Elevated Supervision and Intensified Briefings To Reinforce Conduct and
           Safety

           Prior to the new directive, two employees at the General Schedule (GS)-14 pay
           grade supervised personnel traveling to foreign protective assignments. In
           Cartagena, these supervisors were alleged to have solicited prostitutes. Policy
           now requires that supervisors of personnel traveling to foreign protective
           assignments be GS-15 supervisors—one from RES and one from a field office.
           The directive also requires that these supervisors brief personnel on standards of
           conduct prior to departure to the foreign country, and enforce these standards
           while in the foreign country. Standards of conduct briefings will be conducted
           for all domestic and foreign protective assignments and high-profile events. In
           addition, all personnel traveling abroad must complete relevant ethics training to
           be eligible for protective travel.

           USSS officials expressed concern that the nine GS-15 inspectors in RES are not
           sufficient to staff all foreign protective assignments and fulfill their internal
           affairs role. Another concern expressed was that a GS-15 would not be an
           effective deterrent against misconduct, given that the supervisor cannot feasibly
           enforce standards of conduct for all USSS employees associated with the visit.
           The GS-15 inspectors have a demanding role at a command center, working as
           many as 16 hours per day, which may prevent them from enforcing standards of
           conduct for employees with other protective assignments and duty hours. In
           addition, it is unclear whether the supervisor will have time to respond to
           misconduct while fulfilling security-related duties.

           To ensure that all employees are aware of the local laws and customs upon
           arrival in a foreign country, the directive requires the USSS Security Clearance
           Division to provide country-specific briefings covering pertinent topics prior to
           departure to the foreign country. In addition, the directive states that the
           Department of State Regional Security Officer will work with USSS to provide
           intensified country-specific briefings upon arrival in a foreign country. The
           briefings will update personnel on safety issues, zones and establishments that


www.oig.dhs.gov                                14	                                      OIG-13-24
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

           are off limits to USSS personnel, and any country-specific rules imposed by the
           U.S. Ambassador in the country.

           Even with the help of Department of State personnel to identify reputable
           establishments, misconduct can occur in any location. For example, one club
           where employees allegedly solicited prostitutes was considered a reputable
           establishment. Therefore, USSS employees must still use their judgment to
           ensure that they do not discredit themselves or the U.S. Government.

           USSS Established a Professionalism Reinforcement Working Group

           In May 2012, the USSS Director established the Professionalism Reinforcement
           Working Group to assemble objective senior Government officials to examine
           the agency’s organizational behavior, performance, and accountability. The
           group planned to review USSS’ internal controls on professional conduct. It also
           planned to benchmark the agency against the best practices of peer
           organizations to identify areas where USSS is successful or in need of
           improvement.

           The group is cochaired by the Directors of the Office of Personnel Management
           and the Federal Law Enforcement Training Center, and has senior representatives
           from the Federal Bureau of Investigation, DOD, and USSS. The USSS Director
           requested a report within 90 days of the group’s establishment.

           The group reviewed USSS’ policies and standards of conduct, internal controls,
           patterns of discipline related to misconduct, and ethics training. In addition,
           through interviews and literature review, the group identified best practices at
           peer components and agencies such as U.S. Immigration and Customs
           Enforcement, Federal Bureau of Investigation, DOD’s Joint Special Operations
           Command, and the Department of State’s Diplomatic Security Service.




www.oig.dhs.gov                                15                                       OIG-13-24
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   Appendix A
   Objectives, Scope, and Methodology
   The DHS OIG was established by the Homeland Security Act of 2002 (Public Law 107­
   296) by amendment to the Inspector General Act of 1978. This is one of a series of
   audit, inspection, and special reports prepared as part of our oversight responsibilities
   to promote economy, efficiency, and effectiveness within the Department.

   OIG’s Office of Inspections reviewed USSS’ efforts to investigate alleged solicitation of
   prostitutes by its employees during preparations for a Presidential visit to Cartagena,
   Colombia, for the 2012 Summit of the Americas. Our objectives were to determine
   (1) the adequacy of USSS’ response to the incident in Colombia; (2) the adequacy of the
   scope, methodology, and conclusions of its investigation; and (3) the sufficiency of
   corrective actions taken or planned. On May 23, 2012, Senators Joseph Lieberman and
   Susan Collins asked the Acting Inspector General to conduct an independent
   investigation into misconduct by USSS employees in Colombia. DHS OIG conducted the
   investigation concurrent with our review.

   To accomplish objectives 1 and 2, we interviewed USSS personnel responsible for
   responding to and investigating the alleged misconduct. We compared USSS internal
   investigation procedures with the execution of this investigation. In addition, we
   observed selected ISP interviews and reviewed ISP investigative files, including interview
   statements, polygraph examination reports, email communication, and hotel records.
   We compared ISP investigative files with USSS’ initial report of investigation. We
   enlisted NCCA, a DOD agency responsible for training polygraph examiners and
   overseeing Federal polygraph programs, to assess the USSS polygraph examinations. To
   avoid interfering with the OIG’s investigation, we did not interview USSS officials
   regarding its reports of investigation or evaluate USSS’ efforts to determine whether
   there was a compromise of national security. However, the OIG’s investigative report
   concluded that there was no compromise of national security.

   To accomplish objective 3, we reviewed new conduct guidance. USSS issued the
   guidance on April 27, 2012. At the conclusion of our fieldwork, the guidance had not
   been in effect for a period long enough to assess its sufficiency.

   We conducted fieldwork from May to September 2012. We conducted this review
   under the authority of the Inspector General Act of 1978, as amended, and according to
   the Quality Standards for Inspections issued by the Council of the Inspectors General on
   Integrity and Efficiency.




www.oig.dhs.gov                                16                                       OIG-13-24
                                       OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security

   Appendix B
   Management Comments to the Draft Report


                                         U.S. Department of           Hom~hHld       Sec urit.y




             *    DIRECTOR
                                       UNT1'ED STATES SECRET SERVlCE
                                                       Washing/on. D.C. 20223



                                                           December 26, 2012




              The Honorabl e Charles K. Edwards
              Acting Inspector General
              Office of the Inspector General
              Depa rtment of Homeland Security
              Washington, D.C. 20528

              Re:      Draft Report titled "Adequ<!cy of USSS' Internal Investigation of Alleged Misconduct in
                       Cartagena, Colombia," DIG Project Number 12-14B-ISP-USSS

              Dei3r Mr. Edwards:

              Thank you for the opportunity to review and comment on this draft report. The u.s. Secret Seruice
              (USSS) appreciates the Office of the Inspector Genera l's (OIG) positive acknowledgement regarding our
              investigation of this inc id ent.

              We are pleased t o note that the DIG's review of our investigation fo und that the USSS acted
              e)(peditiously, appropriately, and professio nally in its investigation of its employees and their actions in
              Cartagena, Colombia. Please know that I remain committed to ensuring that every USSS employee
              respects, recognizes, and understands their re sponsibi lities in regard to personal and pro fessional
              cond uct.

              Although the report does not contain recommendations, it does recognize our progress thus far in
              st rengthenin g policy guidance, providing more comprehensive briefings for foreign t rips, and
              restructuring superviSion during foreign trips.

              Again, thank you for the opportunity to review and comme nt on this draft report. Technical comments
              and a sensitivity reque st have been provided under separate cover. We look forwa rd to continuing this
              work with a cooperative spirit in the future .



                                                                 Sincerely,




                                                                 Mark Sullivan




www.oig.dhs.gov                                                    17                                                         OIG-13-24
                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

   Appendix C
   Timeline of Events


                                                 APRIL   2012
         Apr 11-12: 11 em ployees 1-__
         bring female foreign                        Apr 12-13: Miami SAIC
         nationals to their hotel                    conducts initial inquiry into
         rooms, some of who                                     of misconduct
         were prostitutes                            Apr 13: 11 employees return
                                                     to US from Ca           a
         Apr 14: RES Inspectors
         interview 11 employees                       Apr 17: USSS provides written
                                                      notification to GIG;
        Apr 17-25: Apr 17-27:                         GIG declines to
        Inspectors     Specific I                    Apr 17: USSS requests
        conduct        and National                  intelligence checks on involved
        fieldwork in   Security                      foreign nationa ls
        Cartagena      polygraphs
                       conducted                                    Apr 18-
                                                     Apr 19: A 12th May 24:
                                                     employee is       RES Inspectors
                                                     implicated and    interview all
                                                     a 13th            employees on
                                                     self-reports      assignment in
                                                                       Cartagena

         May 15: RES requests 2
                                                 MAY   2012
         additional intelligence
         community checks

                                                 AUGUST     2012
                                                     Aug 29: RES issues report of
                                                     investigative activity through
                                                     May 24




www.oig.dhs.gov                                18                                       OIG-13-24
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   Appendix D
   Major Contributors to This Report
   William McCarron, Chief Inspector
   Paul H. Bergstrand, Lead Inspector
   Karen Cottrell, Assistant Special Agent in Charge
   Kimberley Lake de Pulla, Senior Inspector
   Tatyana Martell, Senior Inspector
   Pharyn Smith, Senior Inspector
   Nicholas Ketter, Inspector




www.oig.dhs.gov                               19                  OIG-13-24
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

   Appendix E

   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   USSS Liaison
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                 20                         OIG-13-24
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
